NO. 20-1668

In the
Supreme Court of the United States
CITY OF TAHLEQUAH, OKLAHOMA;
BRANDON VICK; JOSH GIRDNER,

Petitioners,
v.
AUSTIN P. BOND, AS SPECIAL ADMINISTRATOR OF
ESTATE OF DOMINIC F. ROLLICE, deceased,

THE

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
BRIEF OF AMICUS CURIAE
THE NATIONAL SHERIFFS’ ASSOCIATION
IN SUPPORT OF PETITIONERS
GREGORY C. CHAMPAGNE

COUNSEL OF RECORD

MAURICE E. BOSTICK
ST. CHARLES PARISH SHERIFF’S OFFICE
260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-2883
SHERIFFGC@STCHARLESSHERIFF.ORG

JUNE 17, 2021

COUNSEL FOR AMICUS CURIAE

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
AMICUS CURIAE BRIEF OF THE
NATIONAL SHERIFFS’ ASSOCIATION ........... 1
IDENTITY AND INTEREST OF
AMICUS CURIAE ................................................ 1
FACTUAL BACKGROUND ....................................... 2
SUMMARY OF ARGUMENT .................................... 5
ARGUMENT ............................................................... 6
I.

THE PROVOCATION DOCTRINE HAS ALREADY
BEEN INVALIDATED BY THIS COURT .................. 6

II. TERRY V. OHIO ESTABLISHED OFFICERS’ RIGHT
TO CONFRONT AND SEIZE ROLLICE .................. 13
III. QUALIFIED IMMUNITY APPLIES WHERE THE
CONSTITUTIONAL RIGHT ALLEGEDLY VIOLATED
WAS NOT CLEARLY ESTABLISHED .................... 17
CONCLUSION.......................................................... 20

ii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Batiste v. Theriot,

458 F.App’x 351 (5th Cir. 2012) ......................... 19

Blacke v. LeBlanc,

691 F.3d 645 (5th Cir. 2012) ............................. 18

City and County of San Francisco v. Sheehan,

575 U.S. 600, 135 S.Ct. 1765,
191 L.Ed.2d 856 (2015) ................................... 9, 10

Club Retro, L.L.C. v. Hilton,

568 F.3d 181 (5th Cir. 2009) ............................. 18

Cty. of Los Angeles v. Mendez,

137 S.Ct. 1539 (May 30, 2017) .................. passim

Cutler v. Stephen F. Austin State Univ.,

767 F.3d 462 (5th Cir. 2014) ............................. 18

Graham v. Connor,

490 U.S. 386, 109 S.Ct. 1865,
104 L.Ed.2d 443 (1989) ............................. passim

Harlow v. Fitzgerald,

457 U.S. 800, 102 S.Ct. 2727,
73 L.Ed.2d 396 (1982) ........................................ 17

Jones v. Collins,

132 F.3d 1048 (5th Cir. 1998) ............................ 19

Nerren v. Livingston Police Dep’t,

86 F.3d 469 (5th Cir. 1996) ............................... 19

Paroline v. United States,

572 U.S. 434, 134 S.Ct. 1710,
188 L.Ed.2d 714 (2014) ..................................... 12

iii
TABLE OF AUTHORITIES – Continued
Page

Pearson v. Callahan,

555 U.S. 223, 129 S.Ct. 808,
172 L.Ed.2d 565 (2009) ............................... 17, 18

Saucier v. Katz,

533 U.S. 194, 121 S.Ct. 2151,
150 L.Ed.2d 272 (2001) ................................. 17, 18

Terry v. Ohio,

392 U.S. 1 (1968) ....................................... passim

Thompson v. Upshur Cty., TX,

245 F.3d 447 (5th Cir. 2001) ............................. 19

Whitley v. Hanna,

726 F.3d 631 (5th Cir. 2013) ............................. 19

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. IV ........................................ passim
STATUTES
26 U.S.C. § 501(c)(4) .................................................... 1
42 U.S.C. § 1983 ................................................. 7, 17

1

AMICUS CURIAE BRIEF OF THE
NATIONAL SHERIFFS’ ASSOCIATION
The National Sheriffs’ Association respectfully
submits this amicus curiae brief.1
IDENTITY AND INTEREST OF
AMICUS CURIAE
The National Sheriffs’ Association (the “NSA”) is
a non-profit association formed under 26 U.S.C.
§ 501(c)(4). Formed in 1940 the NSA seeks to promote
the fair and efficient administration of criminal justice
throughout the United States and in particular to
advance and protect the Office of Sheriff throughout
the United States. The NSA has over 13,000 members
and is the advocate for 3,080 sheriffs throughout the
United States.
The NSA also works to promote the public interest
goals and policies of law enforcement throughout the
nation. It participates in the judicial process where
the vital interests of law enforcement and its members
are affected.

1 Amicus notified all counsel of record of its intent to file this
brief more than 10 days before the due date, and consent to file
was given by petitioners City of Tahlequah, Oklahoma, et al.,
but not by respondent Austin Bond. NSA has therefore filed a
Motion for Leave to File this Brief of amicus curiae along with
the attached brief. This brief was not authored in whole or in part
by counsel for any party. No person or entity other than amicus
made a monetary contribution to this brief’s preparation or
submission.

2

FACTUAL BACKGROUND
On August 12, 2016, Joy Rollice called 911. App.2.2
She told the dispatcher: “my ex-husband is in the
garage, he will not leave, he’s drunk and it’s going to
get ugly real quick.” App.2. She confirmed that she
wanted her ex-husband sent to jail and informed the
dispatcher that “he doesn’t live here. He’s a registered
sex offender and lives in Park Hill. He’s my exhusband. He’s still got tools in the garage. He doesn’t
live here.” App.2-3. Petitioners—Officers Brandon Vick
and Josh Girdner—responded, along with Officer Chase
Reed. App.3. It is undisputed that petitioners knew that
Rollice was Joy’s ex-husband, that he was intoxicated,
and that Joy was afraid of what he might do if he
remained in her home. App.3.
Upon the officers’ arrival, Joy led them to the side
entrance of the garage. App.3. There they met Rollice
and began speaking with him. App.3-4. The officers
told him that they did not intend to take him to jail
and only wanted “‘to get him a ride out of there.’”
App.3-4. Rollice was “fidgeting with something in his
hands.” App.4. He also appeared “nervous and fidgety”
to Officer Girdner, who “asked [Rollice] to step outside
so [Officer Girdner] could pat him down for officer
safety.” CA10. Aplt. Appx. 000198; see App.4. Rollice
refused. App.4. Officer Girdner testified that Rollice
“did not step outside but backed further into the
garage,” and “then turned and began to walk away
2 “App.” refers to the petitioners’ appendix. “CA10. Aplt. Appx.”
refers to the Appellant’s appendix in the U.S. Court of Appeals
for the Tenth Circuit.

3
from me. I stepped into the garage and ordered him
to stop and turn around.” CA10. Aplt. Appx. 000198.
Based on body camera footage, the district court
agreed that Rollice “backed up and then turned and
walked away from Girdner to the back of the garage.
All three officers followed [Rollice] into the garage.”
App.39. The Tenth Circuit, however, posited that a
jury could view the video as showing that “Officer
Girdner took the first step toward Dominic, and
Dominic took a step back only after Officer Girdner
moved toward him.” App.4 n.9. In any event, there is
no dispute that Officer Girdner ordered Rollice to stop,
and he refused. App.5.3
Upon reaching the back of the garage, Rollice
grabbed a hammer and stood facing the officers
holding it with both hands at shoulder level. App.5;
CA10. Aplt. Appx. 000198. The officers backed up, drew
their guns, ordered Rollice to drop the hammer, and
explained that they only wanted to talk to him—but
“he repeatedly refuse[d], saying ‘No.’” App.6; see CA10.
Aplt. Appx.000198. Rollice spun the hammer around
so that its claws were facing Officer Girdner. CA10.
Aplt. Appx. 000198; CA10. Aplt. Appx. 000297. Rollice
then moved to his right, creating a clear path between
himself and the officers. App.6. He stood eight to ten
feet from Officer Girdner. App.6. Officer Reed was even
closer. App.21.
The officers continued ordering Rollice to drop the
hammer, but he again said “No.” App.6. He then pulled
the hammer back behind his head. App.6. Officer
3 All three officers testified that Rollice told them, “One of us is
going to fucking die tonight.” App.5 n 10. Respondent disputed
that claim, and neither court below considered it. Id.

4
Girdner testified that Rollice “took a stance which made
me believe he was going to charge at me or throw the
hammer at me or the other officers present.
At that time, I was in fear for my life and the
lives of the other officers present because [Rollice] posed
an immediate threat of serious bodily injury or death
to me and the other officers.” CA10. Aplt. Appx. 000199.
The body camera footage confirmed that Rollice
“raised the hammer still higher as if he might be preparing to throw it, or alternatively, charge the officers.”
App.40. “In response to Dominic’s movement with
the hammer, Officers Girdner and Vick fire[d] multiple shots,” fatally wounding Rollice. App.6. Officer
Reed fired his Taser but missed. App.40.

5

SUMMARY OF ARGUMENT
In this case under review, the Tenth Circuit
inappropriately applied the “provocation rule” holding
that actions of officers in lawfully seizing a suspect
for investigation rendered the otherwise reasonable
use of force unreasonable. In so holding, the Tenth
Circuit ignored this Court’s decision in Cty. of Los
Angeles v. Mendez finding the “provocation rule” to
be invalid. In addition, contrary to this Court’s holding
in Terry v. Ohio, the Tenth Circuit’s decision makes
unconstitutional a law enforcement officer’s seizing a
suspect for investigation based on reasonable suspicion
of a crime. Further, the circuit below, contrary to the
principles enunciated by this Court in Graham v.
Connor, held an otherwise objectively reasonable use
of deadly force by officers was unreasonable. Lastly,
the decision below failed to apply qualified immunity
where a constitutional right allegedly violated was not
clearly established.
Amicus prays that this Court reaffirm the invalidity of the provocation rule; that officers may seize a
suspect for investigation based on reasonable suspicion
of a crime; that Graham v. Conner is the well-established “objective reasonableness” standard for use of
force; and, that qualified immunity applies where the
constitutional right allegedly violated was not clearly
established.

6

ARGUMENT
I.

THE PROVOCATION DOCTRINE HAS ALREADY BEEN
INVALIDATED BY THIS COURT.

This Court in Cty. of Los Angeles v. Mendez,
137 S.Ct. 1539 (May 30, 2017), clearly held that the
“provocation rule” adopted by the court below cannot
be used to analyze a claim of excessive use of force.
Specifically, this Court held, “[T]hat the Fourth Amendment provides no basis for such a rule. A different
Fourth Amendment violation cannot transform a
later, reasonable use of force into an unreasonable
seizure.” Id. at 1544.
In Mendez, deputies from the Los Angeles County
Sheriff’s Department were searching for a parolee-atlarge named Ronnie O’Dell. A felony arrest warrant
had been issued for O’Dell, who was believed to be
armed and dangerous and had previously evaded
capture. Deputies received word from a confidential
informant that O’Dell had been seen on a bicycle at
the home of Paula Hughes. Deputies were informed
that a man named Angel Mendez lived in the backyard
of the Hughes home with Jennifer Garcia.
When the officers reached the Hughes residence,
they learned that O’Dell was not in the house. Deputies
searched the rear of the residence which included a
one-room shack made of wood and plywood. The shack
had a single doorway covered by a blue blanket.
Unbeknownst to the officers, Mendez and Garcia
were in the shack and were napping on a futon. The
deputies did not have a search warrant and did not

7
knock and announce their presence. When Deputy
Conley opened the wooden door and pulled back the
blanket, Mendez thought it was Ms. Hughes and rose
from the bed, picking up the BB gun so he could stand
up and place it on the floor. As a result, when the
deputies entered, he was holding the BB gun, and it
was pointing towards Deputy Conley. Deputy Conley
yelled, “Gun!” and the deputies immediately opened
fire. Mendez and Garcia were shot multiple times and
suffered severe injuries. O’Dell was not in the shack
or anywhere on the property.
Mendez and his wife filed suit under 42 U.S.C.
§ 1983, against petitioners, the County of Los
Angeles and Deputies Conley and Pederson. As
relevant here, they pressed three Fourth Amendment
claims. First, they claimed that the deputies executed
an unreasonable search by entering the shack without
a warrant (the “warrantless entry claim”); second, they
asserted that the deputies performed an unreasonable
search because they failed to announce their presence
before entering the shack (the “knock-and-announce
claim”); and third, they claimed that the deputies
effected an unreasonable seizure by deploying excessive
force in opening fire after entering the shack (the
“excessive force claim”). 137 S.Ct. at 1545.
After a bench trial, the District Court ruled largely
in favor of respondents. The court found Deputy Conley
liable on the warrantless entry claim, and the court also
found both deputies liable on the knock-and-announce
claim. But the court awarded nominal damages for
these violations because “the act of pointing the BB
gun” was a superseding cause “as far as damage [from
the shooting was] concerned.” Id.

8
The District Court then addressed respondents’
excessive force claim. The court began by evaluating
whether the deputies used excessive force under
Graham v. Connor, 490 U.S. 386, 109 S.Ct. 1865, 104
L.Ed.2d 443 (1989). The court held that, under Graham,
the deputies’ use of force was reasonable given their
belief that a man was holding a firearm rifle threatening their lives. Mendez, 137 S.Ct. 1539, 1545 (2017).
But the court did not end its excessive force analysis
at this point. Instead, the court turned to the Ninth
Circuit’s provocation rule, which holds that “an officer’s
otherwise reasonable (and lawful) defensive use of
force is unreasonable as a matter of law, if (1) the
officer intentionally or recklessly provoked a violent
response, and (2) that provocation is an independent
constitutional violation.” Based on this rule, the
District Court held the deputies liable for excessive
force and awarded respondents around $4 million in
damages. Id.
The Court of Appeals affirmed in part and
reversed in part. Contrary to the District Court, the
Court of Appeals held that the officers were entitled
to qualified immunity on the knock-and-announce
claim. But the court concluded that the warrantless
entry of the shack violated clearly established law
and was attributable to both deputies. Id. Finally,
and most important for present purposes, the court
affirmed the application of the provocation rule. The
Court of Appeals agreed with the conclusion that the
shooting was reasonable under Graham; instead, like
the District Court, the Court of Appeals applied the
provocation rule and held the deputies liable for the
use of force on the theory that they had intentionally
and recklessly brought about the shooting by entering

9
the shack without a warrant in violation of clearly
established law. 137 S.Ct. at 1545-1546.
The Court of Appeals also adopted an alternative
rationale for its judgment. It held that “basic notions of
proximate cause” would support liability even
without the provocation rule because it was “reasonably foreseeable” that the officers would meet an
armed homeowner when they “barged into the shack
unannounced.” Id. at 1546. This Court granted certiorari.
In Mendez, this Court explained that the Ninth
Circuit’s provocation rule permits an excessive force
claim under the Fourth Amendment “where an officer
intentionally or recklessly provokes a violent confrontation, if the provocation is an independent Fourth
Amendment violation.” Id. at 1546. The rule comes
into play after a forceful seizure has been judged to
be reasonable under Graham. Once a court has made
that determination, the rule instructs the court to ask
whether the law enforcement officer violated the
Fourth Amendment in some other way in the course of
events leading up to the seizure. If so, that separate
Fourth Amendment violation may “render the officer’s
otherwise reasonable defensive use of force unreasonable as a matter of law.” 137 S.Ct. at 1546.
This Court in Mendez was adamant that “[t]he
provocation rule, which has been ‘sharply questioned’
outside the Ninth Circuit, City and County of San
Francisco v. Sheehan, 135 S.Ct. 1765, 1777 n.4, 575
U.S. 600, 191 L.Ed.2d 856, 869 (2015), is incompatible
with our excessive force jurisprudence. The rule’s
fundamental flaw is that it uses another constitutional
violation to manufacture an excessive force claim

10
where one would not otherwise exist.” Mendez, 137
S.Ct. 1539, 1546.
In Sheehan, officers were confronted with a
barricaded mentally ill suspect armed with a knife.
They first made entry into the room where she was
located, but when she attacked officers, they quickly
exited the room. Concerned that she may escape out
a window or further arm herself, officers made entry
again. The suspect attacked officers again holding a
knife and officers were force to shoot her. There, the
Ninth Circuit attempted to invoke the “provocation
rule” to hold officers liable. This Court reversed and
remanded the case. 135 S.Ct. 1765 (2015).
This Court in Mendez explained that the reasonableness of the use of force is evaluated under an
objective inquiry that pays careful attention to the facts
and circumstances of each particular case. Graham,
at 396, 109 S.Ct. 1865, 104 L.Ed.2d 443. Mendez, 137
S.Ct. 1539, 1546. And the reasonableness of a particular use of force must be judged from the perspective
of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight. Id. Excessive force claims
are evaluated for objective reasonableness based upon
the information the officers had when the conduct
occurred. Id. That inquiry is dispositive: When an
officer carries out a seizure that is reasonable, taking
into account all relevant circumstances, there is no
valid excessive force claim. Id. at 1547.
This Court in Mendez reasoned that “[t]he basic
problem with the provocation rule is that it fails to stop
there. Instead, the rule provides a novel and unsupported path to liability in cases in which the use of
force was reasonable.” Id. “Specifically, it instructs
courts to look back in time to see if there was a

11
different Fourth Amendment violation that is somehow
tied to the eventual use of force. That distinct violation,
rather than the forceful seizure itself, may then serve
as the foundation of the plaintiff’s excessive force
claim.” Id.
Using a common-sense approach, this Court in

Mendez provided, “This approach mistakenly conflates
distinct Fourth Amendment claims. Contrary to this
approach, the objective reasonableness analysis must
be conducted separately for each search or seizure
that is alleged to be unconstitutional.” Further, “[a]n
excessive force claim is a claim that a law enforcement
officer carried out an unreasonable seizure through a
use of force that was not justified under the relevant
circumstances. It is not a claim that an officer used
reasonable force after committing a distinct Fourth
Amendment violation such as an unreasonable entry.”

Id.

In Mendez, this Court concluded that the Ninth
Circuit was “wrong” to apply the “provocation rule.”
Id. at 1547. Further, this Court made clear the framework for analyzing excessive force claims is set out in
Graham. If there is no excessive force claim under
Graham, there is no excessive force claim at all.
Mendez, 137 S.Ct. 1539, 1547. To the extent that a
plaintiff has other Fourth Amendment claims, they
should be analyzed separately. Id.
In Mendez, this Court explained that the Court
of Appeals also held that “even without relying on
[the] provocation theory, the deputies are liable for
the shooting under basic notions of proximate cause.”
815 F.3d at 1194. In other words, the court apparently
concluded that the shooting was proximately caused
by the deputies’ warrantless entry of the shack. This

12
Court explained that the proper analysis of this proximate cause question required consideration of the
“foreseeability or the scope of the risk created by the
predicate conduct,” and required the court to conclude
that there was “some direct relation between the injury
asserted and the injurious conduct alleged.” 137 S.Ct.
1539, 1548-1549, citing, Paroline v. United States, 134
S.Ct. 1710, 1719, 572 U.S. 434, 188 L.Ed.2d 714, 725
(2014).
This Court in Mendez concluded:
Unfortunately, the Court of Appeals’ proximate cause analysis appears to have been
tainted by the same errors that cause us to
reject the provocation rule. The court reasoned
that when officers make a “startling entry”
by “barg[ing] into” a home “unannounced,” it
is reasonably foreseeable that violence may
result. 815 F.3d, at 1194-1195 (internal quotation marks omitted). But this appears to focus
solely on the risks foreseeably associated
with the failure to knock and announce, which
could not serve as the basis for liability since
the Court of Appeals concluded that the
officers had qualified immunity on that claim.
By contrast, the Court of Appeals did not
identify the foreseeable risks associated with
the relevant constitutional violation (the warrantless entry); nor did it explain how, on
these facts, respondents’ injuries were proximately caused by the warrantless entry. In
other words, the Court of Appeals’ proximate
cause analysis, like the provocation rule,
conflated distinct Fourth Amendment claims
and required only a murky causal link

13
between the warrantless entry and the
injuries attributed to it.

Mendez, 137 S.Ct. 1539, 1549.
Accordingly, this Court vacated the judgment and
the case was remanded for further proceedings consistent with this opinion. Id.
Based on this Court holding in Mendez, the provocation rule is invalid and cannot be used by the
court below to hold petitioners liable for excessive force.
II.

TERRY V. OHIO ESTABLISHED OFFICERS’ RIGHT TO
CONFRONT AND SEIZE ROLLICE.

The Tenth Circuit did not find that there was a
triable issue of fact as to whether lethal force was a
reasonable response to the threat Rollice posed. In the
Tenth Circuit’s view that question was not “determinative.” App.28. Instead, what mattered was not the
reasonableness of the force used in Rollice’s actual
seizure, but whether the officers’ earlier missteps may
have “recklessly created the situation that led to
the fatal shooting,” App.26—i.e., “whether the officers
approached the situation in a manner they knew or
should have known would result in escalation of the
danger,” App.11. The Tenth Circuit’s inquiry into
whether officers contributed to the danger, without
regard to whether those prior actions were themselves
unconstitutional, is even more problematic than the
provocation rule this Court unanimously rejected in
Mendez.
This Court, in Terry v. Ohio, 392 U.S. 1 (1968),
already established the constitutionality of an officer
seizing or detaining a suspect for investigation based
on reasonable suspicion of a crime. The officers’ actions

14
in the present case were just that. Seizing or detaining
a suspect believed to be trespassing and endangering
his ex-wife.
In Terry, this Court explained that in order to
assess the reasonableness of an officer’s conduct as a
general proposition, it is necessary first to focus upon
the governmental interest which allegedly justifies
official intrusion upon the constitutionally protected
interest of the private citizen, “for there is no ready
test for determining reasonableness other than by
balancing the need to search or seize against the
invasion which the search or seizure entails.” Id. at
20-21. (Emphasis added.) Further, “[a]nd in justifying
the particular intrusion the police officer must be
able to point to specific and articulable facts which,
taken together with rational inferences from those
facts, reasonably warrant that intrusion.” Id.
Applying these principles to the case in Terry,
this Court considered first the nature and extent of
the governmental interests involved. This Court provided, “One general interest is of course that of effective crime prevention and detection; it is this interest
which underlies the recognition that a police officer
may in appropriate circumstances and in an appropriate manner approach a person for purposes of
investigating possibly criminal behavior even though
there is no probable cause to make an arrest.” Id. at 22.
Additionally, in Terry, this Court recognized that
during this investigative seizure of a suspect, the safety
of the officer is paramount. This Court provided:
The crux of this case, however, is not the
propriety of Officer McFadden’s taking steps
to investigate petitioner’s suspicious behavior,

15
but rather, whether there was justification
for McFadden’s invasion of Terry’s personal
security by searching him for weapons in the
course of that investigation. Id. at 23. We are
now concerned with more than the governmental interest in investigating crime; in
addition, there is the more immediate interest
of the police officer in taking steps to assure
himself that the person with whom he is
dealing is not armed with a weapon that could
unexpectedly and fatally be used against him.
Certainly it would be unreasonable to require
that police officers take unnecessary risks in
the performance of their duties. American
criminals have a long tradition of armed
violence, and every year in this country many
law enforcement officers are killed in the line
of duty, and thousands more are wounded.

Id.
Most importantly, in Terry, this Court recognized
the need for law enforcement to take action to protect
themselves and victims of violence as follows:
In view of these facts, we cannot blind
ourselves to the need for law enforcement
officers to protect themselves and other
prospective victims of violence in situations
where they may lack probable cause for an
arrest. When an officer is justified in believing
that the individual whose suspicious behavior
he is investigating at close range is armed
and presently dangerous to the officer or to
others, it would appear to be clearly unreasonable to deny the officer the power to take
necessary measures to determine whether

16
the person is in fact carrying a weapon and
to neutralize the threat of physical harm.

Id. at 24.
This Court concluded in that case that “the record
evidences the tempered act of a policeman who in the
course of an investigation had to make a quick decision
as to how to protect himself and others from possible
danger, and took limited steps to do so.” Id. at 28.
Here, officers were confronted with a drunk exhusband in his petrified ex-wife’s garage who refused
to leave and who was a potential danger to his exwife and the officers.4
Further, the decedent willfully refused to comply
with the lawful commands of the officers and instead
intentionally elected to continue to threaten the
officers, was fidgeting with something in his hands and
appeared to be nervous. Officers asked the decedent
to step outside the garage so officers could pat him
down for weapons for officer safety and decedent
refused. Decedent walked away further into the garage,
disobeying orders to stop and turn around.
As in Terry, based on reasonable suspicion of a
potential crime and/or danger to his ex-wife, officers
approached the suspect to seize him and pat him down
for weapons for officer safety consistent with the
suspect’s Fourth Amendment rights. Accordingly,
officers did nothing unconstitutional to “provoke”
decedent into threatening officers with deadly force
which was the sole cause of decedent’s death.
4 Rollice was a registered sex offender and he did not live there.
App.2-3. Further, Joy was afraid of what he might do if he
remained in her home. App.3.

17
III. Q UALIFIED I MMUNITY A PPLIES W HERE THE
CONSTITUTIONAL RIGHT ALLEGEDLY VIOLATED WAS
NOT CLEARLY ESTABLISHED.
Government officials sued in their individual
capacity in a § 1983 action are shielded from liability
for civil damages insofar as their conduct does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have known.
Saucier v. Katz, 533 U.S. 194, 201, 121 S.Ct. 2151, 150
L.Ed.2d 272 (2001); Pearson v. Callahan, 555 U.S. 223,
129 S.Ct. 808, 815, 172 L.Ed.2d 565 (2009), quoting
Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S.Ct. 2727,
73 L.Ed.2d 396 (1982). Accordingly, when a defendant
invokes the defense of qualified immunity, the burden
is on the plaintiff to demonstrate the inapplicability
of the defense. In analyzing a qualified immunity
defense, the court must determine: (1) whether a constitutional right has been violated; and (2) whether
the right was clearly established when viewed in the
specific context of the case. Courts are “permitted to
exercise their sound discretion in deciding which of the
two prongs of the qualified immunity analysis should
be addressed first in light of the circumstances in the
particular case at hand.” Pearson v. Callahan, 555
U.S. at 236.
The doctrine of qualified immunity protects government officials “from liability for civil damages insofar
as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.”5 Qualified immunity is
an “immunity from suit rather than a mere defense
5 Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).

18
to liability.”6 In this manner, “[o]ne of the most salient
benefits of qualified immunity is protection from
pretrial discovery, which is costly, time consuming,
and intrusive.”7 Once a defendant invokes the defense
of qualified immunity, the plaintiff carries the burden
of demonstrating its inapplicability.8
In Saucier v. Katz, the Supreme Court set forth a
two-part framework for analyzing whether a defendant
was entitled to qualified immunity.9 Part one asks the
following question: “[t]aken in the light most favorable
to the party asserting the injury, do the facts alleged
show the officer’s conduct violated a constitutional
right?”10 Part two inquires whether the allegedly
violated right is “clearly established” in that “it would
be clear to a reasonable officer that his conduct was
unlawful in the situation he confronted.”11 The Court
does not have to address these two questions sequentially; it can proceed with either inquiry first.12
In the present case, the Court does not need to
reach the second part of the Saucier as the defendants
6 Pearson v. Callahan, 555 U.S. 223, 237 (2009).
7 Blacke v. LeBlanc, 691 F.3d 645, 648 (5th Cir. 2012).
8 Club Retro, L.L.C. v. Hilton, 568 F.3d 181, 194 (5th Cir. 2009).
9 Saucier, 533 U.S. 194 (2001).
10 Id. At 201
11 Id. At 202
12 See Pearson, 555 U.S. at 236 (“On reconsidering the procedure
required in Saucier, we conclude that, while the sequence set
forth there is often appropriate, it should no longer be regarded
as mandatory.”); see also Cutler v. Stephen F. Austin State Univ.,
767 F.3d 462, 469 (5th Cir. 2014).

19
have not violated a constitutional right. As addressed
supra, and again below, the officers’ actions in seizing
Rollice were constitutional based on Terry v. Ohio.
However, even if the court would find that the official’s
conduct violated a clearly established constitutional
right, which is denied, the court must then consider
whether the official is nonetheless entitled to qualified
immunity because his conduct was objectively reasonable in light of the law at the time the conduct occurred.
See Jones v. Collins, 132 F.3d 1048, 1052 (5th Cir. 1998)
citing Nerren v. Livingston Police Dep’t, 86 F.3d 469,
473 (5th Cir. 1996).
“Qualified immunity protects all but the plainly
incompetent or those who knowingly violate the law,
and courts will not deny immunity unless existing precedent placed the statutory or constitutional question
beyond debate.”13 “Unless all reasonable officers in
the defendants’ circumstance would have known that
the conduct in question violated the constitution, the
defendant is entitled to qualified immunity.”14 Considering the facts in this case, both deputies’ conduct in
pursuing and seizing Rollice to investigate the situation
were objectively reasonable entitling both of them to
qualified immunity.
Based on the above, officers in the present case,
at the very least, are entitled to qualified immunity.
Not only was it not clearly established that their actions
were unconstitutional, but in fact, the opposite was
true. It had been clearly established that their actions
13 Whitley v. Hanna, 726 F.3d 631 (5th Cir. 2013).
14 Batiste v. Theriot, 458 F.App’x 351, 354 (5th Cir. 2012) citing
Thompson v. Upshur Cty., TX, 245 F.3d 447, 457 (5th Cir. 2001).

20
were clearly constitutional according to Terry and
Mendez.

CONCLUSION
For these reasons, amicus urges this Court to end
any ambiguity, grant the petition for certiorari, and
clearly state that (1) the provocation rule is invalid;
(2) that law enforcement officers have the right to
seize a suspect based on reasonable suspicion of a
crime; (3) that Graham provides the factors to determine whether use of force by officers was objectively
reasonable and, (4) that qualified immunity applies
where a constitutional right allegedly violated was
not clearly established.
Respectfully submitted,
GREGORY C. CHAMPAGNE

COUNSEL OF RECORD

ST. CHARLES PARISH SHERIFF’S OFFICE

260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-2883
SHERIFFGC@STCHARLESSHERIFF.ORG
MAURICE E. BOSTICK

ST. CHARLES PARISH SHERIFF’S OFFICE

260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-0213
MBOSTICK@STCHARLESSHERIFF.ORG

COUNSEL FOR AMICUS CURIAE
JUNE 17, 2021

